       October 21, 2004




 Acquisition
 Award of the Air Force F-15 Trainer
 Support Contract
 (D-2005-005)




This special version of the report has been revised to omit source selection
information or contractor proprietary data.



                      Department of Defense
                  Office of the Inspector General
   Quality                       Integrity                Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACA                   Associated Contractor Agreements
ASC                   Aeronautical Systems Center
OEM                   Original Equipment Manufacturer
PPIRS                 Past Performance Information Retrieval System
RFP                   Request for Proposal
RPS                   Rapid Prototyping System
SPO                   System Program Office
TFE-21                Trainer Flight Equipment-21
TSA II                Training Systems Acquisition Two
TSSC                  Training Systems Support Center
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                                 October 2 1,2004

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Report on the Award of the Air Force F-15 Trainer Support Contract (Report
         NO. D-2005-005)

        We are providing this report for information and use. We conducted the audit in
response to a request from Senator John McCain. We considered management comments
on a draft of this report when preparing the final report. The Department of the Air Force
comments conformed to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, no additional comments are required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Mr. Patrick J. Nix at
(703) 604-9332 (DSN 664-9332). The team members are listed inside the back cover.
See Appendix C for the report distribution.
                                  By direction of the Deputy Inspector General for Auditing:


                                                David K. Steensma
                                           Assistant Inspector General
                                            for Contract Management




                                        Special Warning
This special version of the report has been revised to omit source selection information or contractor
proprietary data.
              Office of the Inspector General of the Department of Defense
Report No. D-2005-005                                                                     October 21, 2004
      (Project No. D2003CH-0113)

               Award of the Air Force F-15 Trainer Support Contract

                                          Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments should read this report because it concerns the
technical/management and past performance evaluations used to support a “best value”
contract award (task order) by the Air Force for acquisition and support of the F-15
fighter-aircraft training device.

Background. This audit was performed in response to a request from Senator John
McCain. The Senator asked that we review issues raised by a number of employees at
L-3 Communications (the incumbent contractor). After the Air Force issued the contract
to The Boeing Company for acquisition and support of the F-15 training device,
L-3 Communications employees claimed that the contract was awarded based on an
improper evaluation. Specifically, the employees claimed that the Air Force disregarded
past performance and cost/price as selection criteria and, instead, issued the task order
based solely on an inaccurate assessment of the technical/management criteria.

The Air Force Training Systems Management Directorate, Ogden Air Logistics Center,
Hill Air Force Base, Utah, awarded task order QP01 under contract F33657-01-D-2074 to
The Boeing Company on November 27, 2002, for F-15 training device acquisition and
support. The “best value” award for a 10-year period was based on technical/
management, past performance, and cost/price. Technical/management and past
performance evaluations were considered equal in importance and, when combined, were
significantly more important than cost/price. Based on an initial evaluation of
five proposals, only The Boeing Company and L-3 Communications were considered for
the “best value” decision. The total evaluated price was $* for The Boeing Company and
$* for L-3 Communications. Because a Multiple Award Task Order contract was used,
L-3 Communications cannot protest the decision of the Air Force to award the task order
to The Boeing Company.

Results. The Air Force Training Systems Management Directorate integrated product
team did not effectively conduct its technical/management evaluation and used a
questionable methodology to evaluate past performance to support its decision to award
The Boeing Company the task order contract for acquisition and support of the F-15
training device. Specifically, the Air Force Training Systems Management Directorate
integrated product team:

       •    did not have detailed formal guidance on how to effectively use the Delphi
            technique (evaluation process) to develop technical/management criteria to
            minimize potential biases that could influence the criteria and incorrectly
            attempted to apply numeric values (scientific or knowledge-based measurements)
            to the technical/management subfactor evaluation criteria;

*
    The dollar value has been deleted because it is source selection information or contractor proprietary data.
       •    did not achieve consensus on the technical evaluation results and failed to rank
            the offerors in association with the evaluation criteria;

       •    technical/management evaluators lowered the ratings for L-3 Communications
            for weaknesses that did not relate to the subfactor evaluation criteria; and

       •    the methodology used to assess the past performance of the offerors made past
            performance a nonfactor in the award decision because offerors with outstanding
            past performance and offerors with no prior performance received equal ratings.

As a result, the Air Force Order Award Authority did not have the most reliable
information to support the “best value” decision to award The Boeing Company a 10-
year task order for $* versus awarding the task order to L-3 Communications for $*, a
difference of $31.4 million. The Air Force Training Systems Management Directorate
needs to establish procedures to effectively evaluate proposals from offerors and
appropriately consider past performance, and the Air Force needs to determine whether
the task order for F-15 trainer support should be recompeted before exercising the
appropriate follow-on contract option year. See the Finding section for detailed
recommendations.

Management Comments and Audit Response. The Associate Deputy Assistant
Secretary of the Air Force for Contracting and the Commander, Ogden Air Logistics
Center concurred with the finding and recommendations. The Commander agrees that
the Center did not appropriately use the Delphi technique, however the Commander
believed that the use of the technique was not necessary because the criteria and
procedures discussed with industry during Industry Days were strictly adhered to and
resulted in a fair evaluation process. The Commander stated that he had no plans to
mandate the use of the Delphi technique for either establishing evaluation criteria or to
achieve consensus among the evaluators in the future. However, the Commander stated
that should his position on the use of the technique change, he would establish detailed
formal procedures at that time and incorporate those procedures into the Training
Systems Acquisition Two User’s Guide. Furthermore, the Commander agreed to modify
the User’s Guide to require the use of a neutral rating for offerors without past
performance. The Commander disagreed that ratings of L-3 Communications were
unfairly lowered and that the Air Force Order Award Authority did not have reliable
information to support the “best value” decision. However, the Commander agreed to
determine before an extension of the order is approved that such an extension was the
most advantageous method of fulfilling the Government’s need.

The planned corrective actions are acceptable. However, we believe the use of the
Delphi technique is an excellent tool to ensure an “objective selection” process. We also
stand behind our conclusions that the technical evaluators lowered the ratings assigned to
L-3 Communications for weaknesses that did not relate to the evaluation criteria, and that
the Air Force did not have the most reliable information to support the “best value”
decision.

Additional management comments on the final report are not required. See the Finding
section of the report for a discussion of the management comments on the finding and
recommendations and our audit response, and the Management Comments section of the
report for the complete text of the comments.



*
    The dollar value has been deleted because it is source selection information or contractor proprietary data.


                                                        ii
Table of Contents
Executive Summary                                         i

Background                                                1

Objective                                                 2

Finding
     F-15 Training Device Acquisition and Support        3

Appendixes
     A. Scope and Methodology                            24
         Prior Coverage                                  24
     B. Evaluation of Weaknesses Identified during the
          Technical/Management Evaluation                25
     C. Report Distribution                              28

Management Comments
     Department of the Air Force                         31
Background
           This audit was performed in response to a request from Senator John McCain.
           The Senator requested that we review issues raised by a number of employees at
           L-3 Communications (the incumbent contractor). After the Air Force Training
           Systems Management Directorate, Ogden Air Logistics Center, Hill Air Force
           Base, Utah (Training Systems Management Directorate) issued a contract (task
           order) to The Boeing Company (Boeing) for acquisition and support of the F-15
           fighter-aircraft training devices, L-3 Communications employees claimed that the
           task order was awarded based on an improper evaluation. Specifically, the
           employees claimed that the Air Force disregarded past performance and cost/price
           as selection criteria and, instead, issued the task order based solely on an
           inaccurate assessment of the technical/management criteria.

           Initially Intended as a Sole-Source Contract to Boeing. In response to an
           industry request dated February 7, 2002, the contracting officer for F-15 Systems
           Program Office (SPO) Wright-Patterson Air Force Base, Ohio, clarified the Air
           Force position to award a sole-source contract to Boeing, which was the original
           equipment manufacturer (OEM) for F-15 aircrew and maintenance trainers. The
           response to industry showed that a presolicitation notice was issued on June 6,
           2001, to acquire the services that had “historically” been procured from the OEM
           to streamline the F-15 acquisition and sustainment process. However, after the
           F-15 SPO contracting officer became aware that the trainer support services were
           previously procured competitively, the sole-source acquisition effort was
           discontinued. The F-15 trainer requirement was then transferred to the Training
           Systems Management Directorate, who had awarded the previous contract to
           L-3 Communications for support of the F-15 training devices in June 1997.

           Training Systems Product Group. The Air Force Training Systems Product
           Group team consists of the Training Systems Management Directorate
           (sustainment); the Air Force Training Systems Product Group, Wright-Patterson
           (acquisition); and the Air Force Research Laboratory, Mesa, Arizona (research).
           The team used the Training Systems Acquisition Two (TSA II) contract to
           procure the F-15 trainer support services. The TSA II contract is the second in a
           series of indefinite delivery/indefinite quantity type contracts that the team
           established to satisfy a variety of training systems requirements. The Training
           Systems Management Directorate awarded task order QP01 under contract
           F33657-01-D-2074 to Boeing on November 27, 2002, for F-15 training device
           acquisition and support. The “best value” award for a 10-year period was
           evaluated on technical/management, past performance, and cost/price where
           technical/management and past performance criteria were considered equal in
           importance and, when combined, were significantly more important than
           cost/price. Based on an initial evaluation of five proposals, only Boeing and
           L-3 Communications were considered for the best value decision. The total
           evaluated price was $* for Boeing and $* for L-3 Communications. Because a
           Multiple Award Task Order contract was used, L-3 Communications cannot
           protest the decision of the Ogden Training Directorate to award the task order to
           Boeing.

*
    The dollar value has been deleted because it is source selection information or contractor proprietary data.


                                                        1
        Air Force Review. On January 27, 2003, Senator McCain brought the concerns
        raised with the award to the attention of the Office of the Inspector General, Luke
        Air Force Base, Arizona. He requested that the Office of the Inspector General,
        Luke Air Force Base respond directly to his constituents. That request was
        forwarded to the Office of the Inspector General, Hill Air Force Base because the
        contract was awarded by the Contracting Directorate, Ogden Air Logistics Center,
        Hill Air Force Base. In March 2003, the Office of the Inspector General, Hill Air
        Force Base tasked the Contracting Directorate, which awarded the F-15 trainer
        support contract to Boeing, to prepare a response to the issues raised by
        L-3 Communications employees. The Contracting Directorate response restated
        the information that was previously conveyed to L-3 Communications during its
        post-award decision briefing. In March 2003, the Commander, Ogden Air
        Logistics Center also requested the Acquisition Center of Excellence1 to
        determine whether the award was made in accordance with the Request for
        Proposal (RFP) criteria. The Acquisition Center of Excellence reported that the
        evaluation team followed the selection criteria contained in the RFP. The review
        results from the Center were not provided to Senator McCain.

        A representative from the Air Force Office of the Inspector General,
        Headquarters, stated its organization was not the best suited to review the
        concerns raised with the award because its function was more designed to look
        into complaints of individual misconduct or mistreatment. Furthermore, the
        reviews performed by the Air Force Inspector General and the Acquisition Center
        of Excellence were limited and neither of the reviews identified the issues
        addressed in this report.

Objective
        The audit objective was to determine whether the Air Force decision to award a
        contract for F-15 trainer support was made in accordance with the technical/
        management, past performance, and cost/price criteria contained in the RFP and
        provides the best value to the Air Force. See Appendix A for a discussion of the
        scope and methodology related to the objective.




1
  The Acquisition Center of Excellence, Ogden Air Logistics Center provides advice on acquisition best
practices to contracting offices during the solicitation development. The center was not used on the F-15
trainer support task order.


                                                     2
                    F-15 Training Device Acquisition and
                    Support
                    The Training Systems Management Directorate integrated product team
                    did not effectively conduct the technical/management evaluation and used
                    a questionable methodology to evaluate past performance to support its
                    decision to award Boeing the task order contract for acquisition and
                    support of the F-15 training device. Specifically, because of a lack of
                    detailed formal guidance regarding conducting the technical/management
                    evaluation, the Training Systems Management Directorate integrated
                    product team:

                              •        failed to effectively use the Delphi technique (evaluation
                                       process) to develop technical/management criteria and
                                       document how those procedures were used to minimize
                                       potential biases that may influence the criteria;

                              •        failed to appropriately use the Delphi technique to evaluate
                                       proposals from offerors by applying numeric values “0” to
                                       “5” (scientific or knowledge-based measurements) to the
                                       subfactors and not achieving consensus or ranking the
                                       offerors in association with the evaluation criteria; and

                              •        lowered ratings for L-3 Communications for weaknesses
                                       that did not relate to the subfactor evaluation criteria,
                                       lowered ratings for the same weakness under multiple
                                       subfactor criteria, and lowered ratings for weaknesses that
                                       had been resolved through evaluation notices.

                    Additionally, the methodology used by the Training Systems Management
                    Directorate integrated product team to assess the past performance of the
                    offerors effectively made past performance a nonfactor in the award
                    decision because offerors with outstanding past performance and offerors
                    with no prior performance received equal ratings. As a result, the Air
                    Force Order Award Authority did not have the most reliable information
                    to support the “best value” decision to award Boeing a 10-year task order
                    for $* versus awarding the task order to L-3 Communications for $*, a
                    difference of $31.4 million.

Proposal Evaluation
           The TSA II User Guide, dated May 22, 2002, which was developed by the
           Training Systems Product Group, provides guidance for managing acquisitions
           under the TSA II contract from requirements definition through solicitation, order
           award, and execution of the order through final close out. The guide states task
           orders will be awarded based on an assessment of the program technical/


*
    The dollar value has been deleted because it is source selection information or contractor proprietary data.


                                                        3
management approach, proposed total cost/price, past performance, and other
factors determined appropriate to make an award decision.

Supplemental Guidance Issued for F-15 Trainer Support Task Order. In
accordance with the guide, the Training Systems Management Directorate
assembled an integrated product team to develop the RFP for the F-15 trainer
support task order. The integrated product team operated from January through
August 2002 and consisted of 35 individuals:

       •   10 from the Ogden training directorate,

       •   2 from the Ogden contracting directorate,

       •   9 from the ASC training directorate (1 contractor),

       •   5 from ASC F-15 System Program Offices (SPOs) (1 contractor), and

       •   9 from the Air Combat Command.

The team conversed by e-mail; held conference calls; and conducted industry
days, briefings, and discussions with prospective offerors (using the team Web
site and one-on-one meetings) to define the requirements and develop the criteria
for evaluating the proposals. The team also developed “General Rules of
Engagement” and “Rating Guidelines” to provide supplemental guidance for use
by the team during the technical evaluation.

The “Evaluation Factors for Award” section of the RFP states that the offeror
proposal judged on technical/management, past performance and cost/price to
represent the “best value” to the Government would be awarded the order. The
contracting officer for the task order stated that the criteria for the technical/
management evaluation was developed by the integrated product team. The
technical/management evaluation criteria identified six subfactors:

       •   Concurrency,
       •   Commonality,

       •   Baseline Requirements,

       •   Program Management and Staffing,

       •   Transitioning, and

       •   TFE-21 Conversion to Rapid Prototyping System (RPS).

   The technical/management and past performance criteria were equal in
   importance and, when combined, were significantly more important than
   cost/price.




                                      4
Table 1 shows an illustration, based on our interpretation of Air Force guidance,
of how technical/management and past performance would constitute at least
30 percent each and cost/price no more than 40 percent.


       Table 1. Evaluation Factors and Illustration of Weighting
 Factor 1: Technical/Management Evaluation                            Weighting
           Subfactor 1: Concurrency
           Subfactor 2: Commonality
           Subfactor 3: Baseline Requirements
                                                                        >30%
           Subfactor 4: Program Management & Staffing
           Subfactor 5: Transitioning
           Subfactor 6: TFE-21 Conversion to RPS
 Factor 2: Past Performance                                             >30%
 Factor 3: Cost/Price                                                   <40%



         Technical/Management. The integrated product team intended to use the
Delphi technique to evaluate how well proposals from the offerors met the
technical/management evaluation criteria. The Delphi technique was developed
by the Rand Corporation and later enhanced by the U.S. Government as a group
decision-making tool. The tool allows a group of experts to come to some
consensus of opinion when the decisive factors were subjective, and not scientific
or knowledge-based. The TSA II User Guide states, when the Delphi technique is
used, that the offerors are ranked based on their capability to meet the evaluation
criteria. The guide also includes an evaluation form that provides an example of
how the ranking should be accomplished. However, the form does not show
offerors being ranked, but does show offerors receiving numeric scores, including
fractional numbers.

Based on that guidance, the integrated product team developed procedures to
implement the Delphi technique and incorporated those procedures in the
“Evaluation Factors for Award” section of the RFP. Those procedures state that
each offeror would be assigned a numerical rating from “0” to “5” for each
technical/management subfactor. The integrated product team also provided
supplemental “General Rules of Engagement” and “Rating Guidelines” that
authorized evaluators to assign offerors fractional numbers to the 0.5 level and
provided broad guidelines designed to create consistency among evaluator ratings.

        Past Performance. The TSA II User Guide restricts past performance
reviews to the performance evaluations and contractor performance assessment
reports for previous TSA II orders. However, the guide permits additional
performance information to be obtained from the program managers or
contracting officers for previous TSA II orders in absence of TSA II order
performance evaluations or contractor performance assessment reports. The
guide does not provide a methodology for how to assess the previous work
performance of a contractor.


                                     5
    Based on that guidance, the integrated product team developed the procedures to
    evaluate past performance for this RFP. The “Evaluation Factors for Award”
    section of the RFP states that past performance would be limited to delivery
    orders awarded to the offerors within the TSA II contract. Specifically, the
    Government team would consider the relevancy the “past and present work
    performed under all TSA II delivery orders as well as the semi-annual
    performance reports and CPAR [contractor performance assessment report]
    ratings” of the offeror. The section further included the methodology that the
    integrated product team developed to assess the past performance of the offeror.
    The section states that the performance of an offeror would be rated as either
    “acceptable” or “not acceptable.” Performance of an offeror was considered
    “acceptable” unless the offeror received a performance rating of less than “green”
    (satisfactory) on a previous TSA II task order. Offerors with less than satisfactory
    performance on a previous task order would be found “not acceptable” and will
    not be considered for the award. Only those offerors that had received previous
    task orders under the TSA II contract were at risk of not being considered for the
    award because offerors lacking previous awards received “acceptable” ratings.

            Cost/Price. The TSA II User Guide states that the total proposed
    cost/price of an offeror will be used to make an award decision. Based on that
    guidance, the integrated product team developed the procedures for evaluating the
    cost/price proposals received from the offerors. The RFP states that, for award
    purposes, a cost/price proposal was evaluated based on firm-fixed-price contract
    line items for program management, contractor logistics support, ramp up and
    transition of the Training Systems Support Center (TSSC) and Training Flight
    Equipment-21 (TFE-21) modification. Other contract line items were evaluated
    based on labor rates for specified hours relating to future modifications,
    maintenance calls, overtime, and surge. The integrated product team provided
    estimated quantities for all rates for normalization and rate comparison. The
    offeror provided quantities and labor categories for fixed-price level-of-effort
    contract line items for the software development center and TSSC functions.

Technical/Management - Delphi Technique to Develop
  Evaluation Criteria
    The integrated product team, lacking detailed formal guidance, failed to
    effectively use the Delphi technique (evaluation process) to develop
    technical/management criteria and document how those procedures were used to
    minimize potential biases that may influence the criteria. The Delphi technique
    recognizes the value of expert opinion, experience, and intuition and allows the
    use of limited information, when full scientific knowledge is not available, to
    achieve general consensus on an issue. The Delphi technique is particularly
    appropriate when decision-making is required in a political or emotional
    environment or when decisions affect strong factions with opposing preferences,
    as was the case with the F-15 trainer support source selection. For example, a
    representative from the Ogden training directorate stated that representatives from
    the F-15 SPO were impressed with the capabilities of the Boeing developed RPS
    and wanted the trainer effort awarded sole source to Boeing. Use of the Delphi
    technique, is designed to filter out any biases when developing evaluation criteria.



                                         6
One study of the Delphi technique, conducted by the Carolla Development
Corporation, produced a white paper discussing basic procedures for developing
criteria. The procedures include:

       •   Pick a facilitation leader. Leader should be an expert in research
           data collection and not a stakeholder.

       •   Select a panel of experts. Panelists should have intimate knowledge
           of area and may be department managers, project leaders, and even
           stakeholders.

       •   Identify a strawman criteria list from the panel. In a brainstorming
           session, build a list of criteria that all think appropriate for the subject
           project, no “correct” criteria.

       •   The panel ranks the criteria. For each criterion, the panel ranks it as
           1 (very important), 2 (somewhat important), and 3 (not important).
           Each panelist ranks the list individually, and anonymously if
           necessary.

       •   Calculate the mean and deviation. For each criterion in the list, find
           the mean value and remove all items with a mean greater than or equal
           to 2.0. Place criteria in rank order and discuss reasons for items with a
           high standard deviation. The panel may insert removed items back
           into the list after discussion.

       •   Rerank the criteria. Repeat the ranking process among the panelist
           until the results stabilize.

The integrated product team had no records of whether the Delphi technique was
followed, who the facilitation leader or panel experts were, and, most importantly,
how the evaluation criteria was developed and ranked by the group to achieve
consensus. Failure to follow and document the appropriate Delphi technique
procedures raises questions about whether biases influenced the selected
evaluation criteria. Consequently, the shortcomings of the framework used by the
integrated product team to develop the criteria may have determined the outcome.

Questionable Subfactor Criteria. Three of the six subfactors the integrated
product team developed to determine how well a proposal submitted by an offeror
satisfied the technical requirements were met, in part, through the
accomplishment of acts that required Boeing involvement.

        Subfactor 1: Concurrency. The concurrency criteria, which represented
20 percent of the total available technical/management rating points, was used to
assess the processes proposed by an offeror for identifying, acquiring, and
fielding the data updates needed to keep the trainers concurrent (identical) to the
aircraft. The concurrency criteria emphasized each offeror securing advance
Associated Contractor Agreements (ACAs) with Boeing and its subcontractors for
the needed data and linked the technical score of an offeror to the accomplishment
of acts controlled by a competitor. The integrated product team required offerors
to submit supporting documentation to convey the maturity or level of progress of


                                      7
the agreements and to communicate an understanding of the types of information
exchange needed. The integrated product team used the information received to
assess the viability and risk associated with the approach of an offeror.

L-3 Communications had its rating lowered for this criteria because
L-3 Communications had not finalized its ACA with Boeing when its proposal
was reviewed. Also, a majority of the Boeing subcontractors refused to enter into
ACAs with L-3 Communications until a contract was awarded and a firm
requirement existed. A number of the technical evaluators considered the
progress that L-3 Communications made to establish ACAs with Boeing and its
subcontractors a weakness and lowered ratings of the contractor accordingly.

         Subfactor 2: Commonality. The commonality criteria, which
represented 13 percent of the total available technical/management rating points,
was used to assess the plan of an offeror for achieving the Air Force objective to
“decrease long-term training systems costs, maximize use of common software
and develop common system architectures to the maximum extent possible.” The
commonality criteria emphasized that each offeror incorporate common core
software from the RPS system (Boeing developed software) in modifications and
design of new systems. The plans of the offerors were required to explain how
RPS software would be used to accomplish that objective and provide a roadmap
for modifying or replacing trainers that reduced the duplication of effort and
facilitated common hardware/software use for all F-15 trainers.

However, the cost reduction objective could be accomplished without
incorporating RPS software in the training devices. Offerors could use any
method, not limited to using the Boeing developed RPS software, to decrease
long-term training systems costs. Although the integrated product team created
an RPS data library in an attempt to put all offerors on a level playing field, the
information provided may not have been sufficient to allow offerors (other than
Boeing) to effectively bid to the requirement. The technical scores given by the
integrated product team to all other offerors for the “Commonality” subfactor, are
significantly lower than that given to Boeing. See Figure 1. “Technical/
Management Evaluation Scores of the Offerors.”
A representative from L-3 Communications stated that his company and other
offerors requested access to the RPS data library at the Industry Day conferences.
However, the integrated product team initially took the position that because the
system contained a mix of releasable and Boeing proprietary information in a
classified system that no access would be given. The L-3 Communications
representative stated that only after L-3 Communications and other offerors
expressed concern that a valid technical approach could not be achieved without
access to the data, did the integrated product team permit the offerors to review
the RPS library. A member of the integrated product team stated the library
consisted of three documents (three volumes each) and was available for review
over a six-week period. However, according to the L-3 Communications
representative, the data contained in the library could not be reproduced, and only
included samples of the software code. The L-3 Communications representative
further stated that the data available was for an outdated version of RPS.
Therefore, according to the L-3 Communications representative, it was not



                                     8
    possible to determine the overall executive structure or the system level design of
    RPS.

            Subfactor 6: TFE-21 Conversion to RPS. The TFE-21 conversion to
    RPS criteria, which represented 22 percent of the total available technical/
    management rating points was also used to assess the approach of an offeror for
    incorporating the RPS software (Boeing developed software) into the trainers.
    The criteria required an evaluation of the approach of the offeror for incorporating
    the RPS software into the TFE-21 maintenance training devices. Furthermore,
    through a memorandum, dated August 19, 2002, the integrated product team
    added the additional requirement to include a price for an ACA with Boeing to
    accomplish the conversion task. The requirements of the subfactor were met
    when an offeror proposed a viable modification program that was likely to lead to
    maintainable training devices that met or exceeded TFE-21 system performance
    characteristics and when the offeror identified how it would use existing RPS data
    and processes to minimize the time to field future operational flight plan changes
    in the devices. According to an L-3 Communications representative, it was very
    difficult to articulate to Boeing what services and data were needed to accomplish
    this conversion task and complete an ACA due to the RPS system architecture
    being largely unknown.

    Although we were unable to determine which member or members of the
    integrated product team were responsible for the significant changes to the draft
    evaluation criteria, the final criteria were changed to add the “TFE-21 Conversion
    to RPS” subfactor and to make it the highest weighted evaluation criteria.
    Keeping the trainers identical to the aircraft is the critical task affecting warfighter
    capability. However, the task could be accomplished without incorporating RPS
    software into the training devices. Furthermore, incorporating RPS into the
    trainers may not be the best way to reduce long-term training costs. Although the
    integrated product team created an RPS data library in an attempt to put all
    offerors on a level playing field, the information provided may not have been
    sufficient to allow offerors (other than Boeing) to effectively bid to the
    requirement. The technical scores given by the integrated product team to all
    other offerors for the “TFE-21 Conversion to RPS” subfactor are significantly
    lower than that given to Boeing. See Figure 1.

    Procedures Needed. The Ogden Training Directorate needs to establish detailed
    formal procedures to effectively use the Delphi technique to develop technical/
    management criteria and document how those procedures were used in future
    evaluations to minimize potential biases that may influence the criteria.

Technical/Management - Delphi Technique to Evaluate the
  Proposals
    The Ogden Training Directorate, lacking detailed formal guidance, failed to
    appropriately use the Delphi technique to evaluate proposals from offerors. The
    Ogden Training Directorate used 14 members of the integrated product team
    (6 from the Ogden Training Directorate; 4 from the Air Combat Command;
    2 from the ASC F-15 SPOs, 1 contractor; and 2 from the ASC training directorate,
    1 contractor) to evaluate the technical/management proposals from the offerors.


                                           9
Each evaluator was generally assigned to three of the six technical/management
subfactor teams and tasked with determining how well the proposals met the
technical criteria. The subfactor teams reviewed proposals in October 2002 and
operated for the most part from Ogden Air Logistics Center and Wright-Patterson
Air Force Base. The evaluators reviewed the proposals from the offerors,
identified the strengths (the approach proposed by an offeror exceeded or
positively impacted a technical requirement) and weaknesses (the approach
proposed by an offeror failed to meet or adversely impacted a technical
requirement) of each proposal. Additionally, instead of ranking proposals (Delphi
technique), each evaluator assigned the offerors numerical values (scientific or
knowledge-based measurements) based on the level of compliance that the
evaluator perceived a proposal from an offeror had to the subfactor criteria.
Furthermore, the subfactor teams did not achieve consensus on the numerical
values assigned to each offeror or rank offerors in association with the evaluation
criteria.

Numerical Ratings. The technical evaluators attempted to use numerical ratings
(scientific or knowledge-based measurements) for the technical/management
subfactors to identify which proposal best satisfied the technical requirements.
The integrated product team developed criteria for its technical/management
evaluation and classified those criteria into six subfactors: “Concurrency,”
“Commonality,” “Baseline Requirements,” “Program Management and Staffing,”
“Transitioning,” and “TFE-21 Conversion to RPS.” The TSA II User Guide
stated each contractor’s capability to meet the subfactor criteria should be ranked.
However, the guide contained only general guidance on how that should be
accomplished. The TSA II User Guide included a sample evaluation form that
showed contractors being scored in 0.5 increments. Interpreting that guidance,
the integrated product team instructed the technical evaluators to assign the
proposals submitted by the offerors numerical ratings from 0 to 5, in 0.5
increments, to represent how well the proposals met the subfactor criteria.




                                     10
         Figure 1 shows the technical/management evaluation scores given to each offeror.


                                                  1        2
                     Criteria                EC   SWF               *         L-3          Boeing           *             *
                                                     9                      2.3           3.8
         Subfactor 1: Concurrency             M
                                                  (20%)                         20.7          34.2
                                                     6                      2.3           3.9
         Subfactor 2: Commonality             M
                                                  (13%)                         13.8          23.4
         Subfactor 3: Baseline                       6                      3.0           3.7
                                              M
         Requirements                             (13%)                         18.0          22.2
         Subfactor 4: Program                        7                      2.0           2.7
                                              M
         Management & Staffing                    (16%)                         14.0          18.9
                                                     7                      2.8           1.4
         Subfactor 5: Transitioning           M
                                                  (16%)                         19.6           9.8
         Subfactor 6: TFE-21                        10                      2.9           3.9
                                              M
         Conversion to RPS                        (22%)                         29.0          39.0
                                              Total                          115.1         147.5
         1
           The Evaluation Class (EC) designates whether the criteria is Mandatory (M) or Desirable (D) to supporting the
            F-15 Trainers.
         2
           The System Weight Factors (SWFs) were used to convert the offeror's ratings (upper left corner) into values (lower
           right corner) representative of the importance the Air Force placed on the accomplishment of the area evaluated
           through each subfactor. The percentage shown represents the significance each subfactor has on an offeror's
           overall technical/management score.
         *
           Data omitted because it is source selection information or contractor proprietary data.


         Figure 1. Technical/Management Evaluation Scores of the Offerors


         Based on their evaluation, the integrated product team concluded that the proposal
         submitted by Boeing was “the overall technically superior proposal in fulfilling
         the Government’s requirements.” Boeing received a score of 147.5 out of the
         225 possible rating points, while L-3 Communication received a score of
         115.1 points.

         However, due to the technical complexity of the solicitation requirements and the
         lack of scientific or knowledge-based measurements, it was not possible to
         effectively differentiate between the 11 rating increments2 and achieve consensus
         on that rating. The Delphi technique is a tool that a group of experts can use to
         come to some consensus of opinion when the decisive factors are subjective. The
         best that can be expected from the Delphi technique is for a group of experts to
         come to agreement on whether the proposal of an offeror meets the subfactor
         criteria or not, or whether the approach proposed by an offeror is better than that
         of a competitor. If it were possible to accurately identify which of the 11 equal
         intervals represents the level of compliance of an offeror with the stated criteria,
         the integrated product team would not need to use the Delphi technique.


2
 The technical evaluators were tasked to assign the offerors one of 11 possible rating increments (0, 0.5, 1,
1.5, 2, 2.5, 3, 3.5, 4, 4.5, 5) to represent how well their proposal met subfactor requirements.


                                                               11
Achieving Consensus. The scientific or knowledge-based ratings used by the
integrated product team made it impossible to achieve consensus on the
technical/management subfactor scores. Technical evaluators stated that their
teams discussed the weaknesses and strengths noted with each proposal submitted
by the offerors, but were unable to agree on a common set of strengths and
weaknesses or which of the 11 possible ratings should be used to represent how
well the proposals from the offerors met the subfactor requirements. Table 2
shows that individual evaluator ratings were averaged to determine the team
summary for four of the six subfactors for both L-3 Communications and Boeing.


                         Table 2. Evaluation Ratings of the Offerors

                                                                  Evaluator                      Team
         L-3 Communications                           A      B      C      D      E       F     Summary
             Concurrency                             3.0    3.0 2.0 2.0          2.0     2.0      2.31
             Commonality                             2.5    2.0 3.0 2.0          2.0     2.0      2.31
             Baseline Requirements                   3.0    3.0 3.0 3.5          2.5     3.0      3.01
                                                                           2
             PM & Staffing                           1.5    2.5 2.0 2.5 2.8 2.5                   2.0
             Transitioning                           4.0    3.0 3.0 3.0          2.5     1.5      2.81
             TFE-21 Conversion                       3.0    3.0 3.0 2.0          3.0     3.0      2.9

                                                                  Evaluator                      Team
         Boeing                                       A      B      C      D      E       F     Summary
             Concurrency                             3.5    3.5 4.0 4.0          4.5     3.5      3.81
             Commonality                             3.5    3.5 4.0 4.0          4.5     4.0      3.91
             Baseline Requirements                   3.5    3.0 3.5 3.5          4.5     4.0      3.71
             PM & Staffing                           2.82 2.5 2.5 3.0            2.5     3.0      2.71
             Transitioning                           2.0    1.5 1.5 1.5          1.5     1.0      1.4
             TFE-21 Conversion                       4.0    3.5 4.0 4.0          4.5     4.0      3.9
         1
             Denotes team summary was derived by average.
         2
             Evaluator failed to follow guidance for establishing a rating in 0.5 increments.



Differences in evaluators experience levels and their prior experiences with the
offerors impacted the ability of the teams to achieve consensus on ratings. For
example, one evaluator was new and lacked experience evaluating the sufficiency
of proposals. At the time of his assignment, he informed the evaluation team
chief that he felt uncomfortable with his ratings affecting the technical ratings
given to offerors. Although the evaluator felt he possessed the technical
knowledge necessary to evaluate proposals, the evaluator stated he was more
comfortable identifying the strengths as opposed to the weaknesses of the
proposals submitted by the offerors. This was reflected in his ratings, none of the
weaknesses he noted with the proposal from L-3 Communications related to the
respective subfactor criteria.


                                                     12
Another evaluator had a bad experience with L-3 Communications on a prior
contract. According to the evaluator, an L-3 Communications employee refused
to meet a contract deliverable. The employee’s position did not sit well with the
evaluator and caused the evaluator to inquire about how fast the Air Force could
replace L-3 Communications. Based on our assessment of the validity of the
weaknesses the evaluator noted with the L-3 Communications proposal, it is clear
that this encounter biased the evaluator’s assessment of the proposal submitted by
L-3 Communications. Only 2 of the 9 weaknesses (22 percent) that the evaluator
noted related to the respective subfactor criteria.

The impact that inexperience and personal biases had on the validity of the
weaknesses noted and the inability of evaluators to accurately place offerors in
one of the 11 possible numerical rating intervals caused the subfactor evaluation
groups to be unable to achieve consensus. These types of problems are exactly
what the Delphi technique is designed to mitigate and avoid.

Ranking Offerors in Association With Evaluation Criteria. Using its
“scientific or knowledge-based” approach, the integrated product team failed to
effectively interpret the overall technical/management scores of the offerors.
Boeing was determined technically superior because its proposal received the
highest technical score. Figure 2 shows that Boeing received 147.5 of the 225
possible rating points while L-3 Communications received 115.1 points.


  225

  200

  175

  150
                                                  147.5
  125

  100                               115.1
                        *                                        *
   75
                                                                              *
   50

   25

    0
                        *           L-3          Boeing          *            *
        * Data omitted because it is source selection information or contractor proprietary data.

        Figure 2. Air Force Technical/Management Ratings




                                            13
To demonstrate the effects of ranking the technical/management evaluations, we
converted the subfactor scores into numerical rankings. Specifically, we
substituted the technical scores each offeror received from the subfactor groups
with values from “1” to “5.” We assigned a value of “5” to the offeror the
integrated product team rated the highest, a value of “4” to the offeror the
integrated product team rated the next highest, and so forth. For example,
Boeing, the offeror that rated the highest for the “Concurrency” subfactor, had its
“Concurrency” subfactor score replaced with a numerical ranking of 5. The
rankings were then multiplied by the corresponding system weight factor and the
results summed to derive the total effective rankings of the offerors. Although the
results were impacted by the shortcomings of the technical/management criteria
and proposal evaluation, Figure 3 shows the difference in proposals from the
offerors when ranking is used.

  225

  200

  175                                          183.0
  150                             162.5

  125                   *                                     *
  100

   75

   50                                                                      *
   25

    0
                        *           L-3        Boeing         *            *
        * Data omitted because it is source selection information or contractor proprietary data.

        Figure 3. Illustration of Technical/Management Rankings

The Delphi technique is not designed to provide more information than that
provided in Figure 3. If the Ogden Training Directorate wants scientific technical
evaluations, the Ogden Training Directorate needs to develop more scientific
measurements to distinguish between different rating scores because the Delphi
technique is not appropriate.
Procedures Needed. The Ogden Training Directorate needs to establish detailed
formal procedures that appropriately use the Delphi technique to evaluate
proposals of offerors to achieve consensus and rank the offerors in association
with the evaluation criteria.




                                            14
Technical/Management – Weaknesses Noted
    Technical/Management ratings for L-3 Communications were lowered for
    weaknesses that did not relate to the subfactor evaluation criteria, were lowered
    for the same weakness under multiple subfactor criteria, and were lowered for
    weaknesses that had been resolved through evaluation notices. During the audit
    we discussed the weaknesses and strengths we believed were invalid with the
    technical evaluators. For the most part, we found the strengths evaluators noted
    with the proposals for L-3 Communications and Boeing were consistent with the
    evaluation criteria. The only major exception noted, was that some evaluators
    increased the ratings given to Boeing for the “Transitioning” and “Concurrency”
    subfactors for proposing to relocate the TSSC to the F-15E Weapon Systems
    Training Simulation Facility on Seymour Johnson Air Force Base, North
    Carolina, despite knowing when they were evaluating proposals that the facility
    was unavailable.

    However, as Table 3 shows, based on our interpretation of the published criteria,
    only 19 (39 percent) of the 49 weaknesses noted for L-3 Communications were
    valid while 21 (91 percent) of 23 of the weaknesses identified for Boeing were
    appropriate. We found that L-3 Communications and Boeing basically had the
    same number of valid weaknesses identified by the evaluators, 19 and 21
    respectively. See Appendix B for a detailed list of the weaknesses we found
    inappropriate and reason.


                Table 3. Valid Weaknesses Noted with the Proposals for
                               L-3 Communications and Boeing
                                       L-3 Communications            Boeing
                                                   Percent                    Percent
                 Subfactor             Yes    No    Valid     Yes     No       Valid
       Concurrency                      4     11       27      2       0       100
       Commonality                      7      7       50      2       2        50
       Baseline Requirements            2      2       50      3       0       100
       PM & Staffing                    2      4       33      5       0       100
       Transitioning                    1      4       20      9       0       100
       TFE-21 Conversion to RPS         3      2       60      0       0         -
       Total                            19    30       39      21      2        91



    Weakness Not Related to Criteria. Evaluators downgraded the ratings given to
    L-3 Communications and Boeing for weaknesses unrelated to the criteria
    identified for the respective subfactor. For example, one evaluator downgraded
    the rating given to L-3 Communications for the “Concurrency” subfactor because
    he found that its plan to update only the software of TFE-21 trainers placed the
    approach proposed by the offeror for the TFE-21 conversion at high risk. The
    weakness does not relate to the criteria that the integrated product team stated


                                         15
would be used to evaluate how well a proposal from a offeror met the
“Concurrency” subfactor requirements. In the F-15 trainer support RFP, the
integrated product team stated the “Concurrency” subfactor was met when the
proposal described how it met or exceeded the concurrency requirements.
Specifically, for both avionic and maintenance training devices:

           (1) How well will the offeror’s approaches to obtaining data from the
           aircraft prime contractor and/or other contractors facilitate meeting the
           60-day concurrency window? The proposal will be evaluated for a
           clear description of how the offeror determines when an ACA is
           needed, what the content of the ACA should be, and how it establishes
           ACAs.       The offeror will be evaluated on their demonstrated
           understanding of the essential need to have an ACA established with
           the prime aircraft contractor and other contractors to meet the
           requirements of the solicitation. To assess risk, the offeror will be
           evaluated on the maturity of documentation supporting its ACAs
           (actual, unexecuted ACA; letter of intent, etc.). The proposal will be
           evaluated for type and form of data, delivery schedule of data, and
           additional support and/or tools required to use data. The offeror’s
           approach will be evaluated to determine viability and mitigation of risk.

           (2) How well does the offeror integrate this data into an efficient
           design process?

           (3) How well does the offeror’s overall approach to designing,
           developing and fielding updates facilitate meeting the 60-day
           concurrency window?

           (4) How well does the offeror’s proposal communicate how the offeror
           will meet concurrency requirements for multiple WST OFP
           configurations in the field simultaneously, including the potential
           requirement to periodically switch WST configurations back and forth
           (e.g., Suite 4E+ to Suite 5 and back)?

None of the criteria state that the plan of the offeror for updating the TFE-21
trainers would impact its “Concurrency” subfactor rating. Furthermore, in the
post award brief, the integrated product team identified that weakness as a
deficiency which adversely impacted the rating given to L-3 Communications for
the “TFE-21 Conversion to RPS” subfactor.

Other evaluators lowered the ratings given Boeing and L-3 Communications for
issues related to the “Cost/Price” factor. Two evaluators lowered the ratings
given to Boeing for the “Commonality” subfactor because they believed the labor
rates Boeing proposed were high. Another evaluator lowered the rating he gave
L-3 Communications for the “Commonality” subfactor because he believed hours
proposed by L-3 Communications were inflated to compensate for the low labor
rate that it proposed. Furthermore, another evaluator lowered the rating given to
L-3 Communications for “Commonality” subfactor because the evaluator
believed the hardware replacement and conversion upgrades it proposed were
costly. These issues do not relate to the technical/management rating criteria for
the subfactors.


                                         16
     Same Weaknesses Under Multiple Criteria. The technical/management
     evaluation ratings for L-3 Communications were lowered for the same
     weaknesses under multiple subfactor criteria. For example, one evaluator
     (assigned to rate proposals against the “Concurrency,” “Commonality,” and
     “Baseline Requirements” subfactor requirements) downgraded the ratings given
     to L-3 Communications for all three subfactors for not taking steps to enter into
     ACAs with the contractors necessary to support the trainers in a timely manner.
     Only the “Concurrency” subfactor identifies the ACAs of an offeror as one of its
     evaluation criteria.

     In another example, a number of evaluators collectively lowered the ratings they
     gave L-3 Communications for the “Concurrency,” “Baseline Requirements,”
     “Program Management and Staffing,” and “Transitioning” subfactors for
     proposing to move the TSSC just off of Luke Air Force Base, Arizona, when the
     current facilities became no longer available. The RFP states that the plan of an
     offeror for relocating the assets and functions of the TSSC will be evaluated
     through the “Transitioning” subfactor. We find it improper to lower the ratings
     given to an offeror for multiple subfactors for the same perceived weakness.

     Weaknesses Resolved Through Evaluation Notices. The technical/
     management evaluation ratings of L-3 Communications were reduced for
     weaknesses resolved through evaluation notices. For example, evaluators
     assigned to rate proposals against the “Program Management and Staffing”
     subfactor requirements, downgraded the ratings given to L-3 Communications
     because their total TSSC staffing was management top heavy and the staffing at
     Seymour Johnson Air Force Base, North Carolina, was in question. The
     integrated product team sent L-3 Communications evaluation notices, providing
     them an opportunity to clarify what was stated in their proposal.

     In its response, L-3 Communications stated that each TSSC manager was
     qualified to perform tasks in their respective areas of specialization and routinely
     performed engineering and support tasks in addition to their management
     functions. Furthermore, if the TSSC workload occasionally fluctuated to a lower
     level, L-3 Communications would reduce its noncore workforce accordingly.
     This approach ensured retention of key management and technical staff and
     provided the greatest flexibility for the program. In addition, a reduced technician
     staffing level at Seymour Johnson Air Force Base should not increase risk. It
     appears that responses from L-3 Communications resolved the concerns of the
     integrated product team.

     Had the Delphi technique been properly used, the process would have filtered out
     the problems with specific technical evaluators. Therefore, we are not making a
     recommendation relating to this area.

Past Performance - All Offerors Equal
     The methodology used to assess past performance effectively made it a nonfactor
     in the award decision because offerors with outstanding past performance and no
     prior performance received equal ratings. In accordance with the TSA II User
     Guide, the integrated product team identified which offerors had been awarded


                                         17
orders in the past under the TSA II contract. The team contacted the contracting
officers for those orders and identified the completed performance ratings that
each contractor had received. Using that information, the team concluded the past
performance of the three offerors that had previously received orders was
“acceptable.” Under the integrated product team rating method, the team also
found the past performance of the two offerors without experience was also
“acceptable.” However, the integrated product team methodology for rating past
performance gives offerors without previous performance an advantage, because
no credit was given for above average performance. Therefore, previous
performance could only adversely impact the ability of an offeror to receive the
order. Where there is a risk for poor performance, there should also be credit
given for above average performance.

Using performance data from the Past Performance Information Retrieval System
(PPIRS) relating to the orders awarded prior to the F-15 trainer support task order
under the TSA II contracts, we determined that the integrated product team could
have developed a methodology to credit those contractors with above average past
performance. Table 4 shows all three offerors that received orders previously had
performed above average and provides an illustration of how past performance
could be rated.


  Table 4. Illustration of Past Performance Ratings for TSA II Contracts
                                                             PPIRS Rating for
                                                                 Quality of         Proposed
          Contractor            Order     Relevancy                           †      Rating
                                                             Product/Service
               *                  *            *                      *                 *
     L-3 Communications           1           High              Very Good              4.5
     L-3 Communications           2        Moderate             Very Good              4.0
     L-3 Communications           3        Moderate          Satisfactory Plus         3.5
               *                  *            *                      *                 *
               *                  *            *                      *                 *
  †
    Offerors received satisfactory or higher on all the other areas assessed.
  *
    Data omitted because it is source selection information or contractor proprietary data.


The illustrated ratings were derived using a five-point rating scale we developed
based on the relevancy of the previous performance an offerors to the
requirements of the solicitation and the level of performance of the offerors. For
example, an offeror whose work was highly relevant to the requirements of the
solicitation and performed very good in the past would be rated a “4.5,” whereas
an offeror whose work was only moderately relevant and performed very well
would have received only a “4.0” rating. The Ogden Training Directorate should
develop a past performance rating system that credits offerors with above average
performance and does not provide an advantage to offerors without previous
performance.




                                          18
Cost/Price - Evaluation
           Three members of the integrated product team (two from the Ogden Contracting
           Directorate and one from the Ogden Training Directorate) evaluated the total
           cost/price proposed by the offerors. The source selection documentation shows
           that the cost/price proposals from the offerors were evaluated in accordance with
           the TSA II User Guide and the RFP. Table 5 shows the total cost/price proposed
           by L-3 Communications, was approximately $31.4 million less than that proposed
           by Boeing ($* versus $*, respectively).

               Table 5. Total Price of the Boeing and L-3 Communications Proposals
                                  Cost Categories                            Boeing       L-3 Communications
             Trainer Support                                                    $*                 $*
             Trainer Flight Equipment-21 Modification                             *                  *
             Fixed Price Level of Effort Contract Line Item Numbers               *                  *
             Fixed Price for Future Modifications                                 *                  *
             Cost Reimbursable for Future Modifications                           *                  *
             Fixed Price for Overtime, Surge, & Maintenance Calls                 *                  *
             Cost Reimbursable No Fee Contract Line Item Numbers                  *                  *

             Total Price                                                        $*                 $*



           The F-15 trainer order award briefing dated November 20, 2002, also shows a
           “Quantified Risk Assessment” cumulative cost comparison between
           L-3 Communications and Boeing. The cost comparison, based on cost numbers
           taken from the offerors’ proposals that were applied to the approach suggested by
           the offerors, showed the total Boeing cost at $* versus $* for
           L-3 Communications. However, the differences in the suggested approaches of
           the offerors (necessary items versus desirable items) make the comparison of little
           value. Furthermore, both the chairman of the selection team and the order award
           authority stated this cost comparison that was not done in accordance with the
           RFP was not a factor in the decision to award the task order to Boeing.

Conclusion
           Based upon the evaluation of technical/management and past performance factors,
           the Training Systems Management Directorate concluded the award should be
           made to Boeing. The Air Force Order Award Authority stated that the technical
           superiority, quality, and risk associated with the approach proposed by Boeing
           provided the best overall value to the Government despite its $31.4 million
           additional cost. However, the integrated product team did not appropriately use

*
    The dollar value has been deleted because it is source selection information or contractor proprietary data.


                                                       19
    the Delphi technique and there were problems affecting the subfactor ratings
    given to L-3 Communications. Furthermore, the sufficiency of the information
    provided to differentiate the levels of performance, the lack of consensus
    reviewing proposals from the offerors, and the interpretation of the overall
    technical/management scores of the offerors raises concern. In addition, emphasis
    put on incorporating software developed by Boeing into the trainers and the
    requirement to obtain an agreement from Boeing in advance of contract award to
    obtain the data needed to support the trainers favors Boeing. Based on the results
    of this audit, the Training Systems Management Directorate needs to determine
    whether the task order for F-15 trainer support should be recompeted before
    exercising the appropriate follow-on contract option year.

Management Comments on the Finding and Audit Response
    Delphi Technique for Developing Evaluation Criteria. The Commander,
    Ogden Air Logistics Center stated they did not use the Delphi technique to
    develop the evaluation factors and subfactors. Instead, the Center used an equally
    valid methodology, which employs consideration of the risks involved in the
    acquisition so that critical factors and subfactors may be developed accordingly.

    Audit Response. The Delphi technique, if used correctly, is an excellent tool to
    ensure an “objective selection” process in developing evaluation criteria,
    particularly when the decisions affect strong factions with opposing preferences,
    as was the case with the F-15 trainer support source selection. The use of the
    Delphi technique would have eliminated any questions related to the selection of
    evaluation criteria.

    Concerns Raised By Prospective Offerors During the Solicitation
    Development. The Commander stated that the evaluation factors for award were
    issued in draft form to allow prospective offerors the opportunity to respond with
    any concerns regarding the approach. The Center did not receive any indication
    during that phase that any offerors had concerns with the evaluation approach.
    Audit Response. Several offerors and members of the integrated product team
    took issue with the evaluation factors and questioned the emphasis put on
    incorporating software developed by Boeing into the trainers and the requirement
    to obtain an agreement from Boeing in advance of contract award at the time the
    Air Force was developing the solicitation.

    Risk Assessment to Develop Evaluation Criteria. The Commander stated they
    used risk assessment to determine the risk areas of planned acquisition and
    developed the evaluation criteria around the risks identified and the technical
    requirements that were most likely to be discriminators during the evaluation.

    Audit Response. There was no documentation to support any risk assessment
    used by the Air Force to develop the evaluation criteria, and we were unable to
    determine which member or members of the integrated product team actually
    developed the criteria.




                                        20
Results of Bid Protest Review. The Commander commented that he believed
the Government Accountability Office would have supported the source selection
decision had it been protested. Accordingly, he recommended that we seek a peer
review of the audit by the bid protest section of the Government Accountability
Office.

Audit Response. Because the Ogden Air Logistics Center used a Multiple
Award Task Order contract for acquisition and support of the F-15 trainer
devices, L-3 Communications was not permitted to protest the decision to award
the task order to The Boeing Company. Therefore, the Government
Accountability Office protest section would not review the award and there is no
reason to request such a review.

Deviation from Air Force Guidance for Awarding Orders Under Multiple
Award Contracts. The Commander stated that although the evaluation
technique and modifications to the Delphi Technique in its limited use in the
source selection process could be improved upon, the audit report produced no
findings or recommendations that demonstrate that Air Force guidance for
awarding orders under multiple award contracts was not followed nor that there
was any arbitrariness in the way ratings were assigned.

Audit Response. Differences in experience levels of the technical evaluators,
experiences evaluators previously had with the offerors, as well as variations in
team and individual evaluator rating methodologies impacted the ability of the
teams to achieve agreement on proposal strengths and weaknesses. As a result,
differences existed in the way ratings were assigned.

Validity of Weaknesses Noted with L-3 Communications. The Commander
stated that the ratings assigned to L-3 Communications were not unfairly lowered
for weaknesses that did not relate to subfactor evaluation criteria, for the same
weakness under multiple subfactor criteria, or for weaknesses that had been
resolved through evaluation notices. The Commander took exception with the
audit conclusions about the validity of a number of the weaknesses identified in
the report.
Audit Response. We thoroughly discussed the weaknesses that were invalid with
the technical evaluators. As a result, we concluded that only 19 (39 percent) of
the 49 weaknesses were valid. Most of the evaluators that we talked to agreed
with our conclusions.
Past Performance Methodology. The Commander agreed that the methodology
used to evaluate past performance did not allow discrimination among offerors
with acceptable past performance. The Commander stated the evaluation
methodology was structured to recognize bad past performance. In retrospect, the
Commander realizes that allowing more granularity in the past performance
ratings would achieve a more precise means of differentiating among the offerors
in the past performance area.

Audit Response. Adopting a methodology that offers a greater spectrum of past
performance ratings would provide a better means to differentiate among offerors
in the past performance area.


                                    21
    Information to Support the “Best Value” Decision. The Commander stated
    that the Air Force Order Award Authority did have reliable information to support
    the “best value” decision. The Commander also stated that evaluation criteria
    were followed, that offerors provided sufficient information in their proposals to
    conduct evaluations and assign proposal ratings, and that the Order Award
    Authority was given sufficient and reliable information regarding those ratings to
    support a “best value” decision.

    Audit Response. The Ogden Air Logistics Center could have properly used the
    Delphi technique to preclude any objectivity issues related to developing the
    evaluation criteria and technical evaluations. Unfortunately, the source selection
    evaluation factors used by the Air Force raised questions about whether an
    “objective selection” process was followed.

Recommendations and Management Comments
    We recommend that the Commander, Ogden Air Logistics Center in
    conjunction with the Commander, Training Systems Product Group,
    Wright-Patterson, Air Force Base:
           1. Establish detailed formal procedures to effectively use the Delphi
    technique to develop technical/management criteria and document how those
    procedures were used in future evaluations.
           2. Establish detailed formal procedures that appropriately use the
    Delphi technique to evaluate proposals from offerors to achieve consensus
    and rank offerors in association with the evaluation criteria.

    Ogden Air Logistics Center Comments. The Commander, Ogden Air Logistics
    Center concurred and stated that there were no plans to mandate the use of the
    Delphi technique for establishing criteria or to achieve consensus among the
    evaluators in the future. However, should the Center change its position in the
    future, it would establish and incorporate into the Training Systems Acquisition
    Two User’s Guide detailed formal procedures on how the Delphi technique would
    be followed. The Commander also agreed to document the evaluation results
    accordingly.

           3. Either develop an effective past performance rating system for
    future competitive Training Systems Acquisitions Two orders or eliminate
    past performance as an evaluation criteria.

    Ogden Air Logistics Center Comments. The Commander concurred and agreed
    to amend the Training Systems Acquisition Two User’s Guide to require use of a
    neutral rating for offerors without past performance records when past
    performance is assessed.




                                        22
       4. Determine whether further action on the F-15 trainer support task
order is appropriate before extending the contract.

Ogden Air Logistics Center Comments. The Commander concurred stating
that before an order extension is approved, he will ensure that an order extension
is the most advantageous method of fulfilling the need of the Government.




                                    23
Appendix A. Scope and Methodology
    We reviewed the procedures and documentation used to support the Air Force
    decision to award the F-15 trainer support contract to Boeing. The award
    evaluation was performed at Hill Air Force Base, Utah, and Wright-Patterson Air
    Force Base, Ohio. The dates of the documentation reviewed ranged from June
    1997, the date of the previous F-15 trainer support contract award, to March 2003,
    the date of the Acquisition Center of Excellence review. We reviewed the
    technical/management, past performance, and cost/price criteria contained in the
    RFP. We also reviewed applicable guidance related to fair opportunity
    requirements for orders exceeding $2,500 issued under multiple task order
    contracts. Additionally, we interviewed technical/management evaluators from
    Luke Air Force Base, Ogden Air Logistics Center, and Wright-Patterson Air
    Force Base to evaluate strengths and weaknesses documented on the technical
    evaluations. We also interviewed representatives from the Air Combat Command
    at Langley Air Force Base, Virginia. Furthermore, we reviewed the RFP to
    determine how the past performance of the offerors was assessed and how their
    proposed costs were evaluated.

    We performed this audit from May 2003 through May 2004 in accordance with
    generally accepted government auditing standards.

    Although an announced objective, we did not review the management control
    program because our scope was limited to evaluating only the task order
    requested by Senator McCain.
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.
    Use of Technical Assistance. We used Quantitative Methods analysts for
    information and guidance relating to the Delphi technique.
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Contract Management area.

Prior Coverage
    No prior coverage has been conducted on the Air Force’s source selection of the
    F-15 trainer support contract during the last 5 years.




                                        24
Appendix B. Evaluation of Weaknesses Identified
during the Technical/Management Evaluation
Index B-1. Boeing
    Subfactor/                                                              IG DoD Assessment of the
             1
No. Evaluator Description of Weakness                                       Inappropriate Weaknesses
B1     2/E     High labor rate/high cost.                                   Relates to “Cost/Price” factor.
B2     2/B     Labor rates are above average.                               Relates to “Cost/Price” factor.

Index B-2. L-3 Communications
    Subfactor/                                                         IG DoD Assessment of the
             1
No. Evaluator Description of Weakness                                  Inappropriate Weaknesses
L1     1/B     Software only update. This places the TFE-21 conversion Relates to subfactor 62.
               approach at high risk.
L2      1/B     Provided estimates for Suite 4+ when the Air Force          Relates to “Cost/Price” factor.
                requested total savings.
L3      1/B     Over inflated the hours to compensate for low labor rates. Relates to “Cost/Price” factor.

L4      1/H     Contractor ACA status and expectation creates significant Prospective contractors refused
                risk.                                                      to sign an ACA until contract
                                                                           award.
L5      1/H     Contractor Statement of Work is weak.                      Does not relate to
                                                                           technical/management subfactor
                                                                           criteria.
L6      1/J     Offeror's plan to keep the TSSC in the Phoenix area, while Does not relate to
                eliminating the need to move personnel, keeps the location technical/management subfactor
                far from an “F-15 centered” Air Force base.                criteria.
L7      1/J     The potential for refusal by some subcontractors to enter   Prospective contractors refused
                into ACAs with incumbent may thwart the ability of L3       to sign an ACA until contract
                Communications to secure necessary data with which to       award.
                accomplish any tasking.
L8      1/J     “Late requests” for ACAs with subcontractors shows poor Multiple subfactor ratings
                planning capability on the part of the incumbent.       downgraded for this weakness.
                                                                        (See No. L4 and L7.)

L9      1/G     RPS is only mentioned once under ACA and is not part of Relates to subfactors 2 and 6.2
                concurrency process.
L10     1/G     Proposed receipt of various RPS loads in operational        Relates to subfactors 2 and 6.2
                flight plan development process is not mentioned.
L11     1/G     Concurrency will be done with the contractor remaining in Does not relate to
                the Phoenix area. This is a short-term solution (personnel technical/management subfactor
                retention) to a long-term problem (efficient use of        criteria.
                personnel).




                                                  25
    Subfactor/                                                                 IG DoD Assessment of the
             1
No. Evaluator Description of Weakness                                          Inappropriate Weaknesses
L12    2/E     Viability of offeror's approach is extremely low and very       Relates to “Cost/Price” factor.
               high-risk or the hours are inflated to adjust for the low
               labor rates.
L13    2/B     Slow action in requesting ACAs.                                 Relates to subfactor 12.
                                                                               (See No. L4, L7, and L8.)
L14      2/B      High price tag for future TFE-21 updates.                    Relates to “Cost/Price” factor.
L15      2/G      Offeror proposes $* for TFE-21 upgrade, but assumptions Relates to “Cost/Price” factor.
                  make this impossible.
L16      2/J      The lack of timeliness in requesting ACA responses leads Relates to subfactor 12.
                  one to question the inability of the offeror to plan     (See No. L4, L7, L8, and L13.)
                  adequately for deadlines.
L17      2/J      The TFE-21 software conversion to RPS software is            Relates to “Cost/Price” factor.
                  provided at * but carries a $* price tag for hardware
                  replacement.
L18      2/J      Proposed funding profile for the conversion plan exceeds     Relates to “Cost/Price” factor.
                  available funding by $*.
L19      3/H      Contractor is remaining in Phoenix, off of the military      Does not relate to
                  facility. The risk is that over time, the contractor will    technical/management subfactor
                  become more and more separated from the primary user.        criteria.
L20      3/J      The lack of timeliness in requesting ACA responses leads Relates to subfactor 12.
                  one to question the ability of the offeror to plan       (See No. L4, L7, L8, L13, and
                  adequately for deadlines.                                L16.)
L21      4/D      Seems like total TSSC staffing is management top heavy.     Subfactor rating downgraded
                                                                              even though evaluation notice
                                                                              was resolved.
L22      4/C      The relocation of the TSSC to a contractor facility and the Does not relate to
                  closure of offices at Luke Air Force Base will present a    technical/management subfactor
                  challenge to maintain the same level of TSSC interface the criteria.
                  program has had over the past 10 years.
L23      4/I      Keeping the TSSC near but not at Luke Air Force Base      Does not relate to
                  could pose a problem for security measures since they are technical/management subfactor
                  not discussed.                                            criteria.
L24      4/F      Manning at Seymour Johnson Air Force Base is of           Subfactor rating downgraded
                  concern.                                                  even though evaluation notice
                                                                            was resolved.
L25      5/D      “The primary downside of leaving the F-15 TSSC near       Issue reported by the evaluator
                  Luke Air Force Base is that no other F-15 Training Device as both a strength and weakness.
                  resources or Government personnel reside in the area.”

L26      5/I      No mention of security measures, climate control, or fire    Subfactor rating downgraded
                  prevention in the new facility.                              even though evaluation notice
                                                                               was resolved.
*
  The dollar value has been deleted because it is source selection information or contractor proprietary data.

                                                     26
    Subfactor/                                                              IG DoD Assessment of the
             1
No. Evaluator Description of Weakness                                       Inappropriate Weaknesses
L27    5/F     Concern over having cleared facility in time for move of     Subfactor rating downgraded
               equipment.                                                   even though evaluation notice
                                                                            was resolved.
L28        5/A     Plan for relocating TSSC assets and functions. Medium Subfactor rating downgraded
                   risk.                                                    even though evaluation notice
                                                                            was resolved.
L29        6/G     Offeror bases this proposal on having an unclassified    Does not relate to
                   version of the RPS software January 2003, which will not technical/management subfactor
                   happen.                                                  criteria.
L30        6/G     The option to declassify current RPS 4E+ software does   Relates to “Cost/Price” factor.
                   not address cost and schedule.
1
    Evaluator name was removed from this report.
2
    Subfactor 1 = Concurrency
    Subfactor 2 = Commonality
    Subfactor 3 = Baseline Requirements
    Subfactor 4 = Program Management and Staffing
    Subfactor 5 = Transitioning
    Subfactor 6 = TFE-21 Conversion to RPS




                                                    27
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Air Force Inspector General
Commander, Aeronautical Systems Center
   Director, F-15 System Program Office
   Director, Training Systems Product Group
Commander, Ogden Air Logistics Center
Director, Aerospace Operations

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          28
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        29
Department                     of the Air Force Comments




   .
   0PJIICe Of' THE AllllTANr




           MEMORANDUM




           FROM: SAF/A~
                               SECRETARY
                                           DEPARTMENT             OF THE AIR FORCE
                                                         WASHINGTON,




                                FOR DEPUTY INSPECTOR GENERAL FOR AUDITING
                                                                          DC




                                             OFFICE OF TIlE INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                                                                                        2 0 Stf'     zrJll4




                      1060 Air Force PentaJOll
                      Wuhinpm,      DC 20330-1060


           SUBJECT:      Air Force RCIpODIC to DoD IG Draft Report of Audit, Project                No. D2003CH-0113
                         Award of the Air Force F-lS Trainer Support Contract


               I COIICW'in the attached    respousc   to subject audit.   The Air Force concurs        in all foW'
           recommendations.     However,     !be Air Force maintains      that the criteria    and procedures
           documeDted in correspondence        and published in !be final RFP, were strictly          adhered   to and
           resulted in an efficient, effective, and fair evaluation of all propolai&.


              Point of contact for !be Air Force reapDlIIC is: MI. Kathleen           James,    SAF/AQCK.       (703)588-
           7012, email: Kathlcen.iames@Denla2on.af.mil




                                                              g~~~~USAFR
                                                              AslOCiatc   Deputy    Assistant
                                                               Secretary (Contracting)
                                                              Assistant Scczetary (Acquisition)

           AIIachmcnt:
           20 Sep 04 ()().ALC/CC      Mcmonndum         w/AJJ;h




                                                                  31
.
MEMORANDUM

FROM:




SUBJECT:
               OO-AlCICC
                           FOR SAF/AQC



               7981 Georgia SIJ'«\
                                                DEPAATIIENT




               Hill Air Fora: Ba~. Utah 84056-5824
                                                               OF THE AIR FORCE
                                         HEADQUARTEJIS OGDeN AlII LOGISTICS CEH'IU (AFIIC)
                                                     IIU. AIRFORCEBASE.UTAH




                 OoD (1(;) Draft Report, Award of the Air Forte F.IS Tramer Suppor1 Contract.
                 No. D2003CH~113)      29 Jun 04

I. This is in response to the DoD 10 request Ihat the Commander. Ogden Air loaiSlics
                                                                                                      20 September        2004




                                                                                                                        (Project



                                                                                                                  Cmter. in
conjunction    with the Director. Training Systems Product Group. Wright.Pallerson                                  Air Force
Base. provide        Air Foree comments              on subject    draft repor1.


2. The Slaled objcctivc of this audit was to determine whether the Air Foree decision to award 1\
contnu:tfor f.] 5 trainer suppon was made in accordance    with the tcchnical/management.  past
performance,        and cost/price        criteria   contained     in the RFP and provides           besl value      to the
Air Foree. There arc a number                   of items in this rcpon that are outside the scope of the staled
objective; e.g., the audit rcpon               included findings regarding Air Force's mc:thodology      in
developing        evaluation      criteria,    inappropriate      technicallmanagemenl          evaluation,     and methodology
to evaluate      past performance.             However.   the Air Force concurs          with the overall         intent of the
findings and recommendations                    contained in the draft rcpor1.

3. The Air Foree           maintains      that the criteria      and procedures     discussed       with indust/)'     during
Indus\/)' Days, documented     in correspondence                    and published in the linal RFP documents,       were
strictly adhered 10 and resulted in an efficient,                  effective, and fair evalualion of all proposals.    The
Order Award Authority (OAA) had sufficient information 10 make a "best valuc" decision using
the resul!! of the lechnical/management evaluation. past perlarmance resuhs, and lolal cvaluated
price.     While thc government               order sclection     teWD and thc OAA        strivcd     for maximum
objectivity,      the selection      process     by ils nalure     is subjective.   so professional       judgmenl       was
implicit throughout the entire: proce.o;s. The discriminating factors in the award decision were
based on the technical superiority, qualily, and risk al a reasonable and realistic price oflhe
successful      offeror.




                                                                  %~~~~I'US~
                                                                  com~t.
Attachment:
AF Response to DoD (IG) Draft Report.
 Project No. D2003CH-0113




                                                                        32
                                     For Official Use Only
                   Source Selection Information- See FAR 2.101 and 3.104
                                           -I-
                 Air Force Response to DoD (IG) Draft Report D2003CH-0113



We have reviewed the draft version of the audit report, and offer the following comments and
management response to the report recommendations.

FiDdinp and Management RapoDle

   1. The integnted product team failed to effectively use the Delphi technique
   (evaluation proceas) to develop technicallmanallement criteria and document how those
   procedura were used to miDimize potential biua that may influence the criteria.

   Raponse: The Air Force agrees that it did not use the Delphi Technique as originally
   developed by the Rand Corporation. In fact, it is in retrospect a misnomer to call the process
   the Air Force used in assigning numeric values a "Delphi method." The Rand Corporation
   model of the Delphi Technique calls for use of the consensus building tool to develop the
   measures to be used in the evaluation process, in this case, the evaluation factors and
   subfactors. The Air Force did not employ this model to develop the evaluation factors and
   subfactors. Instead, it chose to use an equally valid methodology, which employs
   consideration of the risks involved in the acquisition so that critical factors and subfactors
   may be developed accordingly. Most importantly, while the Air Force concedes a true
   "Delphi technique" was not part of our methodology, we followed an acceptable evaluation
   process in both developing our criteria and in evaluating our proposals. The methodology
   employed precisely followed what was specified in the solicitation itself, which was issued in
   draft fonn to allow prospective offerors the opportunity to respond with any concerns
   regarding the approach. We did not receive any indication during that phase that any offerors
   had concerns with our evaluation approach.

        The Air Force uses risk assessment to determine the risk areas of planned acquisitions,
   and develops evaluation criteria around the risks identified and the technical requirements
   that are most likely to be discriminators during the evaluation. This process was used by the
   IPT to develop the evaluation criteria for the F-IS Trainer Support contract. The Air Force
   guidance concerning using risk assessment and discriminators in detennining evaluation
   criteria can be found in the Air Force Source Selection Procedures Guide, March 2000. Had
   this source selection decision been protested to the Government Accountability Office
   (GAO), we believe that GAO would have supported our selection of evaluation criteria in
   this case, as well as the evaluation that was conducted here. Accordingly, we recommend
   that the DOD IG seek a peer review of this audit by the GAO, particularly by the bid protest
   section of the GAO. The Air Force would be willing to participate in discussions with your
   office and GAO concerning this audit. In any event, the DOD IG should not attempt to
   establish new standards to assess the validity of source selection decisions. Rather, the DOD
   IG should apply the standards adopted by GAO over the past 80 years.




                                              33
                                      For Official Use Only
                    Source Selection Information - See FAR 2. J Oland 3. J04
                                           -2-
1. The integrated produd team faUed to appropriately use the Delphi technique to
evaluate proposals from offeron by applying Dumeric values "0" to "5" (scientific or
knowledge-based measurements) to the subfadon and not achieving consensus or ranking
the offeron in association with the evaluation criteria.

   Response: The Air Force agrees that the Delphi Technique was not used precisely as
   identified in the audit and developed by the Rand Corporation. However, the procedures
   used were in accordance with the described procedures outlined in the TSA II User's Guide
   and the RFP. The basis for the evaluation and ultimate decision by the Task Order Award
   Authority in no way deviated from the evaluation approach set forth in the RFP and in
   accordance with the Air Force Source Selection Guide (March 2000) and regulatory guidance
   for awarding orders under multiple award contracts. Further, while the evaluation technique
   and modifications to the Delphi Technique in its limited use in the source selection process
   could be improved upon, the audit report itself produces no findings or recommendations that
   demonstrate the procedures specified in accordance with the Air Force Federal Acquisition
   Regulation Supplement (AFFARS) 5352.216-9001, Awarding Orders Under Multiple Award
   Contracts, were not followed, nor that there was any arbitrariness in the way ratings were
   assigned. Further, by demonstration in the report itself, even had the explicit Delphi
   Technique been used in its entirety, there is no basis to conclude that the outcome of the
   evaluation and decision made would have been different. Perhaps the biggest ''failure'' in the
   Air Force approach was simply one of inappropriately citing a technique that was not used in
   its purest form, that is, the Delphi Technique. However, not having followed such a
   technique does not render the entire process that was employed, and clearly spelled out in the'
   RFP, invalid.



3. The integrated produd team lowered ratings for 13 Communications for weaknesses
that did not relate to the .ubfador evaluation criteria, lowered ratings for the same
weakness under multiple .ubfador criteria, and lowered ratings for weaknesses that hid
been resolved through evaluation notices.

   TechnlcallManlgement-       Weaknes.es Noted. The Air Force disagrees that L-3's ratings
   were unfairly lowered based on weaknesses unrelated to the evaluation criteria, considering
   the same weakness under multiple subfactors, and weaknesses that had been resolved
   through evaluation notices.

   Weaknesses Not Related to Criteria. The report cites a weakness in the TFE-21 section
   that was considered a risk to the L-3 Concurrency approach. The report does not specify the
   weakness under discussion, but it is believed to be Number L I, which addresses L- 3' s failure
   to include appropriate hardware changes in the TFE-21 conversion. The evaluation team
   considered the L-3 approach to concurrency, as exemplified in their TFE-2l conversion
   proposal, to be too focused on software and lacking in appropriate hardware changes.
   Because excess reliance on software solutions complicates concurrency changes, this
   approach jeopardizes L-3's ability to meet the 6O-day concurrency window. This specifically
   falls under the third element of the Concurrency criterion.




                                                 34
                                     For Official Use Only
                    Source Selection Infonnation- See FAR 2.101 and 3.104
                                            -3-
   The report and appendix cite several wealmcsses as being related to the CostIPrice factor.
   The CostlPrice evaluation does not have weaknesses per se, and the weaknesses under
   discussion were written against infonnation provided in the technical proposal. Frequently,
   issues that might at first appear to be cost issues are actually related to the proposed technical
   approach; for example, a flawed technical approach could result in a proposal with more
   hours than would reasonably be expected.

   Same Weaknesses      Under Multiple Criteria.     The report criticizes the Air Force for
   downgrading different aspects of L-3's technical proposal for a single weakness. It should be
   noted that all offerors were evaluated this way; when a single weakness affected more than
   one criteria of any offeror's proposal, the weakness was considered under all the criteria
   affected. This is not inappropriate, in that a flaw that would affect different areas of a
   contractor's perfonnance should be recognized to present a risk to al\ the affected areas.

   The report takes exception to an evaluator lowering ratings under Concurrency,
   Commonality, and Baseline Requirements because L-3 had not taken timely steps to enter
   into ACAs and states that ACAs should be evaluated only under Concurrency. The Air
   Force disagrees. The RFP explicitly addressed the ACA process in the Proposal Preparation
   Instructions (PPI) and Evaluation Criteria related to Concurrency. For Commonality, the PPI
   stated, "The lack of an ACA or other satisfactory method of acquiring data could legitimately
   cause a weakness in Commonality." The evaluation criterion includes identification of the
   necessary data and an approach to obtaining and intClJlreting the data. ACAs are also
   directly related to a number of items under Baseline Requirements, such as configuration
   management and threat system databases. The use, non-use, or failure to timely pursue
   ACAs affect all three areas differently, with consequences that must be assessed to arrive at
   an accurate measure of a proposal's quality and likelihood to meet the Air Force's needs.

   It should be noted that multiple write-ups of a weakness under a single evaluation subfactor
   did not result in multiple downgrades of a proposal.

       Weaknesses Resolved Through Evaluation Notices. The report assumes that any
   response to an evaluation notice (EN) resolves the weakness. This is not the casco An EN is
   issued when the evaluator does not have adequate infonnation to complete the evaluation. If
   the response to an EN provides adequate infonnation for the evaluator to complete the
   evaluation, the EN is closed. Closure of an EN docs not mean that the infonnation provided
   resolved the related weakness.



4. The methodology used by the Air Force to alless tbe past performance of tbe offeron
effectively made past performance a nonfaetor in the .ward decision because offerora with
outstanding past performance and offerora with no prior performance received equal
ratings.




                                               35
                                                       For Otficlal Use Only
                                     Source SeJection ltJ{otmaUon    -
                                                                     See FAR 2. ]01 and 3.104
                                                  -4-
                     PMt'erform8Ree- ADOJI'eronEq.8I.The AirForce~                       tbItthemctbodo1ogy
                                                                                                         used
                     to ovaI1i8tC past porformaDce. essentially an "acceptabJc VB.nonacceptablc"    methodology,   did
                     DOt allow discrimination among offerors with acceptable past perfonnance.

                    111thia case, all offcrozJ recoived the same past performance rating because no oft'erors had
                    an unacecptable put performance history. The evaluation methodology was stnIeturcd to
                    recognize bid past performance.      In reIrospect, the Air Force maI.izcs that allowina more
                    sranularity in the put performance ratings would adUcve a more pn:eise .means of
                    cIitTaenti8tin& among the offeror. in the put perfonaance area. However, oven if qualitative
                    dift'cn8ces amona put pcdormance ratings had been employed for offerors with acceptable
                    put per(ormance. DOput performance ratiDp -prd              would have outweighed the technical
                    IIIerit8 oftbe sclcctcd offeror'. proposal who abo had acceptable put perfonn~.

                    The put performance cvulva1ion medIodolDl)' was included in the draft RFP posted for
                    offeror comment. If any protpeCtive offeror objected to the evaluation sehemc, exception
                    sbould have been taken befunI the RFP was issuccL AJJwith many of the conclusions of the
                    OOD IG in this audit, the GAO would have libly found this assertion wtimely had it first
                    been JIIised in a post-award protest.



Source           5. A8 a nauJt. tit. Air Force Order Award'AutfMrity did Dot have reliable iaf08'lll8Ueuto               .
selection        lIIp       th "belt uhae"            .. awardBoeiDia               IMkorder fer ~
information or   Ver1U8
                     annJIq to tuk .,                            1"""
                                                      13CO&Ul.uieatioDl
                                                                    fer                         a dUrenaetol' .'
contractor       $3L41U11BoD.
proprietary
data has been       The Air Force cIisIpJes tbIt the Air Force Order AwanJ Authority did not have reliable
blacked out.        inIonDlUion to support the "best value" dcc:bion. We have provided ample evidence to
                    dcmoDstra1e 'thIt, the a1atcd ovaIuation criteria were followed, that offerors provided sufficient
                    infotmation in their 'pmposaIa to conduct evaluations Ind auigo. proposal ratinp. and that the
                    Order Award Authority was given'sufficicat       and reliable information reganting those ra1in&s
                                                                                              ,
                    tosupporta "bestVIIlue"
                                         dccisicm.
                                                 .                                       '



                    Further, the Basil for Award in the RFP stated that the Air Force wouJd award to a hiaher
                    pricecI offeror ifthel8cbnica1 superiority of the pfOp08aI out'M:i8hcd the cost difference. The
                    Order Dec:Won AuthorityadequateJ)'      justified the IJ'ade.off of cost and performanco.

                    "Total evaluated price" is a soum ae1ectioa term refcrrina    to the outcome of an evaluation; it
                    is not the value ofthc result8Dt contract. ID the cascofthe   polS order, the costIpricc
                    ovaIuatiao included estimates that IN Dot biDdina amounts     on the order. If the estimatca an:
                    excJudcd &om both cost pIOpoaais, the values of the orders     associated with both proposals
                    8t'O.            for 1;3 and I              1Jr Boeina, 8 differeacc ofSlO,516,852.

                    C.Rduioa.     The Air Force disagrees with the RpOrt conclusion that the evaluation was
                    flawed. The RpOrt cites flaws in the application of the Delphi technique. That the Air Force
                    did not follow. tcchuique defined by the IG after the evaluation was completed does not




                                                                  36
                                             For Official Use Only
                           Source Selection Information - See FAR 2.1 01 and 3.1 04
                                                             -s-
    mean that the evaluation conducted in accordance with the RFP was flawed. We have
    adequately demonstrated that the evaluation criteria stated in the RFP were foHowed, and that
    all offerors were rated consistently in accordance with the stated criteria. The Air Force is
    required by FAR I7.207(cX3) to ensure that any options exercised in the future are the most
    advantageous method offulfilIing the Government's need, price and other factors considered,
    before every option is exercised. This type of assessment wiH be conducted prior to exercise
    of all future options for the F-15 training system.




Recommendations


I. Establish detailed formal procedures to effectively use the Delphi technique to develop
technical/management    criteria and document how those procedures were used in future
evaluations.

    Response:          Concur.       The Air Force agrees           that should         it choose     to mandate     use of the
    Delphi    technique         for developing      source     selection     criteria     in the future,    it wiII document      the
    procedures       and evaluation       results    accordingly.          At this time, the Air Force             has no plans to
    mandate       use of the Delphi technique   for establishing evaluation  criteria.   We wiH continue to
    develop      criteria in accordance  with the Air Force Source Selection      Procedures Guide, March
    2000,    which     takes     into account    the results     of risk assessments            and the technical       requirements
    that are most      likely     to be discriminators         during      the evaluation.          If the Air Force    plans to use
    the Delphi       Technique    in the future on the TSA II program, formal procedures                               wiH be
    developed        and incorporated    into the TSA 11 User's guide as appropriate.



2. Establish detailed formal procedures that appropriately use the Delphi technique to evaluate
proposals from offerors to achieve consensus and rank offerors in association with the evaluation
criteria.

    Response: Concur. If the Air Force decides to establish a policy mandating use of the
    Delphi Technique to achieve consensus among the evaluators in the future, we wiH establish
    detailed formal procedures regarding how that technique wiH be foHowed.    At this time,
    however, we have no plans to establish such a policy.




3. Either develop an effective past performance rating system for future competitive Training
Systems Acquisitions Two orders or eliminate past performance as an evaluation criteria.




                                                                     37
                                                   For Official Use Only
                        Source     Selection      Information-See    FAR 2.101 and 3.104
                                                        .6-
    Response:      Concur.    The TSPG          has decided   to amend     the TSA II Users'     Guide to require     use
    oC a neutral    rating Cor offerors     without     past performance      records    when past performance        is
    assessed

4. Determine  whether        further   action     on the F -15 trainer   support   task order is appropriate     before
extending the contract.


Response:    Concur.     Before    any extension       of this order is approved,       the Air Force will ensure      that
the extension oCthe order is the most advantageous                  method   of fulfilling   the Government's       need,
price and other factors considered.




                                                               38
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.


David K. Steensma
Henry F. Kleinknecht
Patrick J. Nix
Jason T. Steinhart
Michael B. Vandesteene
